No.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2O2L

HECTOR GABRIEL SANCHEZ-TORRES, APPLICANT/PETITIONER
v
STATE OF FLORIDA, RESPONDENT

UPON UNOPPOSED MOTION FOR EXTENSION OF TIME TO FILE
PETITION FOR A \ryRIT OF CERTIORARI
TO THE SUPREME COURT OF FLORIDA

PROOF OF SERVICE

I, Karin L. Moore, a member of the Bar of this Court and counsel of record for

the Applicant/Petitioner, Hector Gabriel Sanchez-Torres, hereby certiS' that
September 2L, 2021,

I

on

served the Application for an Extension of Time to File a

Petition for a Writ of Certiorari from the Supreme Court of Florida, in compliance

with RuIe 29 of the Rules of the Supreme Court of the United States, via U. S. MaiI,
first-class and postage prepaid, to counsel for Respondent, Assistant Attorney
General Michael T. Kennett, at PL-01, The Capitol, Tallahassee, Florida 32399-1050,

TeI. No. (850) 414-3584 and also by electronic mail
Michael.Kennett@myfloridale gal.com and capapp@myfloridale gal.com.

I

at

Re

spectfully submitted,

S. FRIEDMAN
L.
MOORE
KARIN
Counsel of Record
Office of the Capital Collateral
Regional Counsel - Northern Region
l-004 DeSoto Park Drive
Tallahassee, Florida 3230L
(850) 487-0e22
Robert. Frie dman@ccrc-north. or g
Karin.Moore@ccrc-north.org

2

